Order

Michigan Supreme Corn
Lansing, Michiga
Bridget M. McConnac
ChiefJusti

February 4, 2020

David F. Vivian
ChiefJustice Pro Te

159991

StephenJ. Markmr

Brian K. Zah

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Richard H. Bemste
Elizabeth T. Cleme:
Megan K. Cavanag
Jus tic

SC: 159991
COA: 346974
Calhoun CC: 2011-003991-FC

v
FRANK ALLEN LEVI HOLLAND,
Defendant-Appellant.

On order of the Court, the application for leave to appeal the May 30, 2019 order
of the Court of Appeals is considered, and it is DENIED, because the defendant has
failed to meet the burden of establishing entitlement to relief under MCR 6.508(D).

ft

8

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
February 4,2020

a0127

—~i»

Clerk

Court of Appeals, State of Michigan
ORDER
People of MI v Frank Allen Levi Holland

James Robert Redford
Presiding Judge

Docket No.

346974

Douglas B. Shapiro

LC No.

2011-003991-FC

Mark T. Boonstra
Judges

The Court orders that the motion to waive fees is GRANTED for this case only.
The Court orders that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment.

Presiding Judge

]

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

©

l

jyv kK>-

o
Wv

MAY 3 0 2019

SUMS

■% ,

^ W

>

1 9 6 & ^

Date

STATE OF MICHIGAN
IN THE 37th CIRCUIT COURT FOR THE COUNTY OF CALHOUN
STATE OF MICHIGAN

Plaintiff,
Case #2011-3991 FC

v.
FRANK HOLLAND,
Defendant

.

ORDER DENYING DEFENDANT’S MOTION FOR RELIEF FROM JUDGEMENT
The

defendant filed a Motion for Relief from Judgment on August 21 2018. The defendant

presents the following issues for review by the court:
1. That the trial judge delivered erroneous jury instructions.
2. That the trial judge improperly cured a missing witness issue.
3. That prosecutorial misconduct prejudiced the defendant-appellant,
violation of the defendant-appellant’s confrontation and compulsory rights.
4. That there was a
5. That the defendant-appellant's court appointed attorney failed to protect the defendant-appellant
from procedural protection.
breakdown of the adversarial process between prosecution and the defendant6. That there was a
appellant counsel.
Upon review of the pleadings, the court file and the appellate opinions that have been issued In this
matter, this

court finds that the defendant-appellants arguments are without merit.

IT IS ORDERED, that said motion is DENIED.
September?, 2018

cc:

Prosecutor
Court File

ftp

r 37TH CIRCUIT COURT CLERK

Judi aaH&hn A. Hallfcy (Pj^351)
Circuit Court

